IN THE SUPREME COURT OF THE
UNITED STATES OCTOBER TERM 2020

ALPHONSO CAVE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Florida
PETITION FOR A WRIT OF CERTIORARI

APPENDIX

Exhibit A: Opinion of the Florida Supreme Court (June 11, 2020)
Exhibit B: Order of the Florida Supreme Court denying rehearing (July 22, 2020)

Exhibit A

Supreme Court of Florida
____________
No. SC18-1750
____________
ALPHONSO CAVE,
Appellant,
vs.
STATE OF FLORIDA,
Appellee.
June 11, 2020
PER CURIAM.
Alphonso Cave appeals an order summarily denying his successive motion
for postconviction relief, which was filed under Florida Rule of Criminal
Procedure 3.851.1 We affirm the denial of relief.
In 1982, Cave was convicted of the first-degree murder of Frances Slater,
robbery with a firearm, and kidnapping. See Cave v. State, 476 So. 2d 180, 182
(Fla. 1985). He was sentenced to death for Ms. Slater’s murder, and on direct
appeal, we affirmed Cave’s convictions and sentences. Id. at 182-83. The
sentence was later vacated by the federal district court based on ineffective

1. We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.

assistance of trial counsel during the penalty phase, and this ruling was affirmed by
the federal circuit court. See Cave v. Singletary, 971 F.2d 1513, 1514 (11th Cir.
1992). Cave was given a second sentencing proceeding before a jury. The jury
recommended death by a ten-to-two vote, and the court again imposed a sentence
of death. See Cave v. State, 660 So. 2d 705, 706 (Fla. 1995). This Court vacated
the sentence due to a procedural error in the trial court’s disposition of Cave’s
motion for disqualification of the judge. See id. at 708.
Cave was given a third sentencing proceeding before a jury, and the jury
recommended death by an eleven-to-one vote. Cave v. State, 727 So. 2d 227, 228
(Fla. 1998). On direct appeal, this Court affirmed Cave’s death sentence. Id. at
232. His sentence of death became final in 1999, when the United States Supreme
Court denied certiorari review. Cave v. Florida, 528 U.S. 841 (1999). We also
affirmed the denial of Cave’s initial postconviction motion. Cave v. State, 899 So.
2d 1042, 1045 (Fla. 2005).
In 2017, Cave filed a successive postconviction motion claiming that he is
intellectually disabled and entitled to relief based on Hall v. Florida, 572 U.S. 701
(2014), and Moore v. Texas, 137 S. Ct. 1039 (2017); and a claim seeking relief
under Hurst v. Florida, 136 S. Ct. 616 (2016), and Hurst v. State, 202 So. 3d 40
(Fla. 2016). In September 2018, the circuit court entered an order summarily
denying Cave’s successive postconviction motion finding that his intellectual

-2-

disability claim is time-barred and that Hurst does not apply retroactively to
Cave’s case.
First, Cave is not entitled to postconviction relief based on his intellectual
disability claim. As this Court stated in Phillips v. State, 45 Fla. L. Weekly S163,
S165-67 (Fla. May 21, 2020), Hall does not apply retroactively. Accordingly, we
affirm the postconviction court’s summary denial of Cave’s intellectual disability
claim.
Second, Cave is not entitled to Hurst relief. See State v. Poole, 45 Fla. L.
Weekly S41, S48 (Fla. Jan 23, 2020), clarified, 45 Fla. L. Weekly S121 (Fla. Apr.
2, 2020) (“The jury in Poole’s case unanimously found that, during the course of
the first-degree murder of Noah Scott, Poole committed the crimes of attempted
first-degree murder of White, sexual battery of White, armed burglary, and armed
robbery. Under this Court’s longstanding precedent interpreting Ring v. Arizona
[536 U.S. 584 (2002)] and under a correct understanding of Hurst v. Florida, this
satisfied the requirement that a jury unanimously find a statutory aggravating
circumstance beyond a reasonable doubt.”); Cave, 476 So. 2d at 182 (“Cave was
convicted of one count each of first-degree murder, robbery with a firearm, and
kidnapping.”).
Accordingly, we affirm the postconviction court’s summary denial of Cave’s
successive postconviction motion.

-3-

It is so ordered.
CANADY, C.J., and POLSTON, LAWSON, and MUÑIZ, JJ., concur.
LABARGA, J., concurs in result with an opinion.
COURIEL, J., did not participate.
NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING MOTION AND,
IF FILED, DETERMINED.
LABARGA, J., concurring in result.
This Court has consistently affirmed the denial of relief in cases where the
defendant failed to timely raise an intellectual disability claim based on Atkins v.
Virginia, 536 U.S. 304 (2002). See Bowles v. State, 276 So. 3d 791, 794-95 (Fla.
2019); Harvey v. State, 260 So. 3d 906, 907 (Fla. 2018); Blanco v. State, 249 So.
3d 536, 537 (Fla. 2018); Rodriguez v. State, 250 So. 3d 616, 616 (Fla. 2016).
Similarly, Cave did not timely seek relief under Atkins, and I agree with the
majority that he is not entitled to relief.
However, I strongly disagree with the majority’s reliance on its decision in
Phillips v. State, 45 Fla. L. Weekly S163 (Fla. May 21, 2020) (holding that Hall v.
Florida, 572 U.S. 701 (2014), is not to be retroactively applied, and receding from
Walls v. State, 213 So. 3d 340 (Fla. 2016)). Consequently, I can only concur in the
result.
Moreover, I agree that Cave, whose death sentence became final in 1999, is
not entitled to the retroactive application of Hurst v. Florida, 136 S. Ct. 616
(2016), as interpreted in Hurst v. State, 202 So. 3d 40 (Fla. 2016). See Hitchcock
-4-

v. State, 226 So. 3d 216, 217 (Fla. 2017) (holding that Hurst v. Florida as
interpreted in Hurst v. State is not retroactive to defendants whose death sentences
became final before the United States Supreme Court decided Ring v. Arizona, 536
U.S. 584 (2002)).
However, because the majority relies on State v. Poole, 45 Fla. L. Weekly
S41 (Fla. Jan. 23, 2020), a wrongfully decided opinion to which I strenuously
dissented, I can concur only in the result on this issue as well.
An Appeal from the Circuit Court in and for Martin County,
Elizabeth Ann Metzger, Judge - Case No 431982CF000352CFBXMX
Joe Hamrick and Rick A. Sichta, Jacksonville, Florida,
for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and Lisa-Marie Lerner,
Assistant Attorney General, West Palm Beach, Florida,
for Appellee

-5-

Exhibit B

Supreme Court of Florida
WEDNESDAY, JULY 22, 2020
CASE NO.: SC18-1750
Lower Tribunal No(s).:
431982CF000352CFBXMX
ALPHONSO CAVE
Appellant(s)

vs.

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing and for Supplemental Briefing is hereby
denied.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ., concur.
COURIEL, J., did not participate.
A True Copy
Test:

kc
Served:
RICK A. SICHTA
LISA-MARIE LERNER
JOE HAMRICK
HON. CAROLYN TIMMANN, CLERK
RYAN LEWIS BUTLER
HON. LAWRENCE MICHAEL MIRMAN, CHIEF JUDGE

